                                                OFFICE OF INSPECTOR GENERAL
                                                                         MEMORANDUM




DATE:          March 4, 2003

TO:            Chairman

FROM:          Inspector General

SUBJECT: Report on the Follow-up Audit on Auction Physical Security at the Portals Site

The Office of Inspector General (OIG) has completed a Follow-up Audit on Auction Physical
Security at the Portals Site. A copy of our Report, entitled “Report on Follow-up Audit on
Auction Physical Security at the Portals Site” (Audit Report No. 02-AUD-03-11), is attached.
The objective of this audit was to determine the current status of conditions identified in Audit
Report No. 99-11, entitled “Report on Auctions Physical Security at the Portals site” and issued
on September 28, 1999.

To accomplish the objectives of this follow-up audit, we contracted with the consulting firm of
Job Performance Systems, (JPS). Under our supervision, JPS first reviewed the status of each
condition as reported by FCC management. The JPS review team conducted a site visit to the
FCC Headquarters, interviewed staff, reviewed documentation, and performed other tests
deemed necessary. Finally, JPS evaluated the status of each finding.

All thirty one (31) findings in the original audit were reviewed. The follow-up audit identified
seven (7) findings as open during the audit period. Of the seven (7) open findings, two (2) are
rated as high risk, three (3) as medium risk, and two (2) as low risk. These findings have been
open for over three years. Five (5) are dependent on action by the General Services
Administration (GSA) and one (1) on activity by Republic Properties (the lessor of the
Commission’s Portals facility).

We recommend that the problems we identified be corrected to strengthen the Commission’s
physical security program. Our recommendations will correct present problems and minimize
the risk that future security problems will occur. All open findings contained in the attached
report will be tracked for reporting purposes.

Appendix A of the attached report is a summary of all open audit findings. Appendix B of the
attached report is a summary of all original conditions, open and closed. Appendix C contains
the detailed results of our audit.

In a response dated February 20, 2003, the Office of Managing Director (OMD) indicated
concurrence with the five of the open findings and recommendations and outlined the corrective
planned. For the remaining two findings, OMD undertook corrective action and considers those
items to be completed. We concur with OMD’s assessment for those two findings and consider
them to be closed. We have included a copy of this response in its entirety as Appendix D to this
report.

Because of the sensitive nature of the information contained in the appendices to this report, we
have classified all as, “Non-Public – For Internal FCC Use Only” and have severally limited
distribution. Those persons receiving this report are requested not to photocopy or otherwise
distribute this material.

If you have any questions, please contact Thomas Bennett, Assistant Inspector General for
Audits at (202) 418-0477.




                                             H. Walker Feaster III
                                             Inspector General


Attachments

cc:    Chief of Staff
       Managing Director
       Chief, Wireless Telecommunications Bureau
       AMD – PERM
  Federal Communications Commission
       Office of Inspector General




Report on Follow-up Audit on Auction Physical Security
                  at the Portals Site




                 Report No. 02-AUD-03-11
                      March 4, 2003
                    TABLE OF CONTENTS

                                                           Pa


EXECUTIVE SUMMARY                                      2


BACKGROUND                                             4


OBJECTIVE                                              4


SCOPE                                                  5


OBSERVATIONS                                           5


APPENDIX A                 Open Findings Summary     A-1


APPENDIX B                 Listing of All Findings   B-1


APPENDIX C                 Detailed Findings         C-1


APPENDIX D                 Management Response       D-1




                            1
Executive Summary

On September 28, 1999, the Office of Inspector General (OIG) issued Audit Report No. 99-
11 entitled “Report on Auctions Physical Security at the Portals Site.” This report
summarized the results of an audit of the physical security for the Commission’s Auctions
site located at the Portals II building in Washington, DC. The auction site was moved to the
Portals II building when the Commission moved its headquarters operation there in 1998.
The objective of the original audit was to determine whether the Portals II facility had
sufficient security safeguards to protect Auctions system data. Specifically, the review
focused on physical, procedural, and administrative safeguards. The 1999 report noted that
significant improvements could be made to increase the security of the Auctions facility at
Portals II. The original report contained thirty one (31) findings and the review team
concluded substantial physical improvements can be made to more effectively secure the
Portals II building and the Auctions facility. The Commission concurred with all of the
reported findings and developed corrective action plans to address the findings.

The objective of this audit was to determine which findings from the original audit were
closed and which were open. To accomplish this objective, the OIG established an audit
team with representatives from Job Performance Systems, Inc. (JPS) to perform the follow-
up audit on the Auctions physical security findings from the original report. All thirty one
(31) findings in the original audit were reviewed. To achieve our objective, the audit team
first reviewed the status of each condition in the original report as reported by FCC
management. To determine the appropriateness of the reported status and the current status
of conditions, the review team conducted fieldwork from June 4, 2002 through August 28,
2002. JPS conducted a review at the FCC‘s Portals II Headquarters on June 4, 2002 through
June 7, 2002 to review conditions. An additional site visit was conducted by JPS on July 26,
2002 to follow-up on two conditions. The status of general control conditions, which
addressed physical, procedural, and administrative safeguards, were determined through staff
interviews, review of documentation, and other tests deemed necessary as provided by the by
the Office of the Managing Director (OMD) and the Wireless Telecommunications Bureau
(WTB).

The guideline for performing this audit was the U.S. Department of Justice document, titled
“Vulnerability Assessment of Federal Facilities” (DOJ Report), issued June 28, 1995. This
report enunciated Department of Justice building security standards developed after the
Oklahoma City Murrah Federal Building disaster. Additional guidance was received from
the U.S. General Accounting Office (USGAO), report number, T-GGD-98-141, “General
Services Administration: Many Building Security Upgrades Made but Problems Have
Hindered Program Implementation”, issued June 4, 1998 and other security documents such
as in Office of Management and Budget (OMB) Circular A-130, the Computer Security Act
of 1987, FCC Directive: FCCINST 1479.1, and Presidential Decision Directive (PDD) 63
entitled “Critical Infrastructure Protection.”

Included in our follow-up audit were the thirty one (31) conditions identified in Audit Report
No. 99-11. Of the thirty one conditions reviewed, seven (7) were determined to have an
‘open’ status and twenty-four (24) with a ‘closed’ status. Included in the conditions is one



                                              2
(1) finding that had been reported to Commission management as closed prior to this audit.
As a result of our audit, this condition has been re-opened. On August 28, 2002, we held an
exit conference and met with representatives from the OMD and WTB to discuss the
preliminary findings. OMD and WTB provided informal written and verbal comments.

In a response dated February 20, 2003, the Office of Managing Director (OMD) indicated
concurrence with the five of the open findings and recommendations and outlined the
corrective planned. For the remaining two findings, OMD undertook corrective action and
considers those items to be completed. We concur with OMD’s assessment for those two
findings and consider them to be closed. We have included a copy of this response in its
entirety as Appendix D to this report.




                                             3
Background

On September 28, 1999, the OIG issued Audit Report No. 99-11 entitled “Report on
Auctions Physical Security at the Portals Site” summarizing the results of an audit of the
physical security for the Auctions site, which was relocated to the Portals. The objective of
this audit was to determine whether the FCC’s Portals facility has sufficient security
safeguards to protect Auctions system data. Specifically, the review focused on physical,
procedural, and administrative safeguards.

The 1999 report noted that significant improvements can be made to increase the security of
the Auctions facility at Portals II. The original report contained thirty-one (31) findings and
the review team concluded substantial physical improvements can be made to more
effectively secure the Portals II building and the Auctions facility. The Commission
concurred with all of the reported findings and developed corrective action plans to address
the findings.

The guideline for performing this audit was the U.S. Department of Justice document, titled
“Vulnerability Assessment of Federal Facilities,” issued June 28, 1995. This report
enunciated Department of Justice building security standards developed after the Oklahoma
City Murrah Federal Building disaster.

Additional guidance was received from the following resources:

   Presidential Decision Directive (PDD) 63, entitled “Critical Infrastructure Protection.”
   OMB Circular A-130, entitled “Management of Federal Information Resources,” as
    revised on November 30, 2000.
   The Computer Security Act of 1987 (PL 100-235).
   FCC Instruction 1479.2, “Computer Security Program Directive.”
   U.S. General Accounting Office, report number, T-GGD-98-141, “General Services
    Administration: Many Building Security Upgrades Made but Problems Have Hindered
    Program Implementation,” issued June 4, 1998.

Objective

The purpose of this audit was to determine the current status of the conditions found in OIG
Report No. 99-11. This report summarized the results of an audit of the physical security for
the Auctions site, which was relocated to the Portals. The results of this audit were
summarized in report Audit Report No. 99-11 entitled “Report on Auctions Physical Security
at the Portals Site,” issued on September 28, 1999.

To achieve our objective, the audit team first reviewed the status of each condition as
reported by FCC management. To determine the appropriateness of the reported status and
the current status of conditions, the review team conducted site visits to the Portals II
building at the FCC Headquarters. The status of audit conditions, which addressed control
areas of physical, procedural, and administrative safeguards, were determined through
walkthroughs, staff interviews, review of documentation, and other tests deemed necessary.



                                               4
Scope

The scope of this engagement consisted of control weaknesses identified in the OIG’s prior
report Audit Report No. 99-11 entitled “Report on Auctions Physical Security at the Portals
Site,” issued on September 28, 1999. The scope of this task order was to determine which
findings from the prior audit were closed or open. For closed findings, the contractor
performed appropriate tests to determine if the closed status was appropriate. For findings
reported as open, the contractor determined if the condition still existed and if the open status
was still appropriate.

The review team conducted site visits from June 3, 2002 through August 28, 2002. A site
review at the Portals II building and the Auctions facility at FCC Headquarters in
Washington, DC was conducted on from June 3, 2002 through June 6, 2002. An additional
site visit was conducted on July 27, 2002. An exit conference was conducted on August 28,
2002.

In total, thirty one (31) conditions were reviewed. Our objective was to determine the
appropriateness of the status of conditions reported by FCC management and determine
which findings from the audit were closed and which were open.

Our procedures were designed to comply with applicable auditing standards and guidelines,
including Generally Accepted Government Auditing Standards (GAGAS).

Observations

The original audit of Auctions physical security identified findings in the areas of physical,
procedural, and administrative safeguards. Included in our follow-up audit were thirty-one
(31) conditions identified in Audit Report No. 99-11. Of the thirty one conditions that were
reviewed, the audit identified seven (7) conditions with an ‘open’ status and twenty-four (24)
with a ‘closed’ status. Represented in the open conditions is one (1) finding that at the time
of our audit which had been reported to Performance Evaluation and Records Management
(PERM) of OMD as resolved by FCC management prior to this follow-up. As a result, this
condition has been re-opened.

Each finding has been categorized by risk ratings of ‘High,’ ‘Medium,’ or ‘Low’. In
assigning ratings, we evaluated each finding to determine potential degree of exposure to
FCC based on the following risk ratings.

        High Risk: Security risk can cause a business disruption, if exploited.

        Medium Risk: Security risk in conjunction with other events can cause a business
        disruption, if exploited.

        Low Risk: Security risk may cause operational annoyances, if exploited.




                                                5
Of those conditions determined to have an open status, two (2) were classified as having high
levels of risk, three (3) as medium levels of risk, and two (2) as low risk levels in the original
audit.

These seven (7) findings have been open for over three years. Six (6) depend on activities
from organizations other than the FCC for closure. Five (5) are dependent on action by the
General Services Administration (GSA) and one (1) on activity by Republic Properties (the
lessor of the Commission’s Portals facility).
.

During the review, FCC management took proactive measures to investigate the conditions
we initially identified as open and initiated steps to resolve those conditions. As applicable,
we have noted such corrective actions in our report.

Appendix A of this report provides the Auctions Physical Security Follow-up- Findings
Summary which lists all open conditions identified during fieldwork. The report entitled
Auctions Physical Security Follow-up – Summary of Findings is included as Appendix B.
This report summarizes all conditions, both open and closed, identified during the follow-up
Appendix C of the report, entitled Auctions Physical Security Follow-up - Detailed Findings,
provides detailed information on the conditions identified during fieldwork. Included with
the narrative are photographs that illustrate the open conditions or the corrective actions
taken. The report also indicates corrective actions reported to have been taken during our
audit by FCC management to resolve conditions initially determined to have an open status.

In a response dated February 20, 2003, the Office of Managing Director (OMD) indicated
concurrence with the five of the open findings and recommendations and outlined the
corrective planned. For the remaining two findings, OMD undertook corrective action and
considers those items to be completed. We concur with OMD’s assessment for those two
findings and consider them to be closed. We have included a copy of this response in its
entirety as Appendix D, entitled Findings and Recommendations – OMD Response.

In accordance with the Commission’s directive on the management of non-public
information, we have classified all appendices as “Non-Public – For Internal Use Only.”
Those persons receiving this report are expected to follow the established policies and
procedures for managing and safeguarding this report in accordance with the Commission
directive.




                                                6
